U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 16, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Denard Stokeling v. United States, No. 20-5157
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 9, 2020.
The government’s response is now due, after one extension, on September 23, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 23, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5157
STOKELING, BERNARD
USA

BRENDA GREENBERG BRYN
FEDERAL PUBLIC DEFENDER
ONE EAST BROWARD BOULEVARD
STE. 1100
FORT LAUDERDALE, FL 33301
954-356-7436
BRENDA_BRYN@FD.ORG

